No. _______

In the Supreme Court of the United States
___________
KENNETH J. JACKSON, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE

I, Counsel of Record for Petitioner
KENNETH J. JACKKSON, JR., do swear or
declare that on this date, September 28, 2021, as
required by Supreme Court Rule 29, I have served
the enclosed MOTION FOR LEAVE TO
PROCEED
IN
FORMA
PAUPERIS
and
PETITION FOR A WRIT OF CERTIORARI on
each party to the above proceeding or that party’s
counsel, and on every other person required to be
served, by depositing an envelope containing the
above documents in the United States mail
properly addressed to each of them and with firstclass postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3
calendar days. The names and addresses of those
served are as follows:

Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov
/s/ Kevin M. Cafferkey
Kevin M. Cafferkey
Counsel of Record
55 Public Sq. – STE 2100
Cleveland, Ohio 44113
Office: (216) 363-6014
Fax: (216) 363-6015
kmcafferkey@hotmail.com
September 28, 2021

Counsel for Petitioner

